                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A08050032                                                                       Page 1 of 1



                A proactive review by NSF OIG identified alleged plagiarism within an NSF proposal.' The
         case was opened for Administrative Investigation.
                                                         4
                The investigation revealed the principk investigator was previously under investigation by
         the NSF OIG for fraud. The project in the proposal is similar to the project in the proposal2that was
         previously under investigation; therefore, the case should be investigated for fraud.
                      i




                    Accordingly, the investigation should be converted to an I case.




VSF 01G Fonn 2 (1 1/02)
